                                                OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit 





                                                PERFORMANCE AUDIT OF DEL-JEN,
                                                INCORPORATED JOB CORPS CENTERS




                                                                         Date: November 3, 2009
                                                                       Report: 26-10-001-01-370
U.S. Department of Labor                                    November 2009
Office of Inspector General
Office of Audit                                             WHAT OIG FOUND

                                                            DEL-JEN did not ensure compliance with Job Corps
BRIEFLY…                                                    requirements for safety inspections, safety committee
                                                            meetings, and student misconduct. While at Gainesville,
                                                            we observed multiple safety- and health-related
Highlights of Report Number 26-10-001-01-370,
                                                            deficiencies. We also found that Gainesville did not
Performance Audit of DEL-JEN, Incorporated Job
                                                            report significant incidents, such as physical assault,
Corps Centers to the National Director, Office of Job
                                                            weapons possession, and narcotics possession to Job
Corps.
                                                            Corps as required.
WHY READ THE REPORT
                                                            Additionally, DEL-JEN did not ensure compliance with
                                                            Job Corps requirements for reporting performance in
This report discusses weaknesses in addressing
                                                            each of the four areas we reviewed – Career Technical
student safety and health and in performance reporting
                                                            Training (CTT) completions, General Educational
at the Gainesville Job Corps Center operated by DEL-
                                                            Development (GED)/High School Diploma (HSD)
JEN, Incorporated (DEL-JEN).
                                                            attainment, student Onboard Strength (OBS), and
                                                            student accountability. Specifically, DEL-JEN did not
WHY OIG CONDUCTED THE AUDIT                                 ensure that students completed all of the CTT tasks as
                                                            required by Job Corps, high school diplomas were
Our audit objectives were to answer the following           documented in students’ records as required,
questions:                                                  Gainesville maintained required support for leave days
                                                            taken by students immediately prior to separation, or
    1.	 Did DEL-JEN ensure compliance with Job              Gainesville accurately reported student participation in
        Corps requirements for managing center safety       its off-center Work-Based Learning (WBL) program.
        programs?
                                                            DEL-JEN generally ensured compliance with Job Corps
    2.	 Did DEL-JEN ensure compliance with Job              requirements for managing and reporting financial
        Corps requirements for reporting performance?       activity.
    3.	 Did DEL-JEN ensure compliance with Job
                                                            Two of seven hotline complaint allegations had some
        Corps requirements for managing and reporting
                                                            merit. Those two allegations were (1) an Albuquerque
        financial activity?
                                                            manager inappropriately ordered student medications
                                                            for personal use, and (2) an Albuquerque staff member
In addition, in response to two hotline complaints, we
                                                            inappropriately received dental services.
added a fourth objective:

    4.	 Did the hotline complaints alleging improper        WHAT OIG RECOMMENDED
        management practices pertaining to staff hiring
        and firing decisions, student recreation funds,     In summary, we recommended the interim National
        student government funds, student background        Director, Office of Job Corps, direct DEL-JEN to
        checks and felon admissions, student                improve corporate-level controls and monitoring over all
        medication used by staff, and center dental         its centers to identify and correct any non-compliance
        services provided to staff have merit?              with Job Corps’ safety and health program and
                                                            performance requirements. We also recommended that
Our audit work was conducted at DEL-JEN’s corporate         the interim National Director assess liquidated damages
administrative office in Gardena, California; Gainesville   against DEL-JEN related to the overstatement of OBS
Job Corps Center (Gainesville) in Gainesville, Florida;     and CTT completions. The Job Corps interim National
and the Albuquerque Job Corps Center (Albuquerque)          Director concurred with our recommendations and
in Albuquerque, New Mexico.                                 stated that Job Corps will work with DEL-JEN to
                                                            improve controls over the Gainesville and Albuquerque
READ THE FULL REPORT                                        Job Corps Centers. DEL-JEN agreed that it can
To view the report, including the scope, methodology,       improve its oversight of center operations, but
and full agency response, go to:                            disagreed with the number of CTT exceptions we
                                                            identified and with our conclusion that OBS had been
http://www.oig.dol.gov/public/reports/oa/2009/26-10-        overstated at Gainesville.
001-01-370.pdf
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN 

                                     Report No. 26-10-001-01-370

                                           U. S. Department of Labor – Office of Inspector General


                                   DEL-JEN Administrative Office 

                                        Gardena, California





    Gainesville Job Corps Center                              Albuquerque Job Corps Center
    Gainesville, Florida                                          Albuquerque, New Mexico




DEL-JEN
Administrative                                                                      Gainesville Job
Offices                                                                             Corps Center




                 Albuquerque Job
                 Corps Center



                                                                      Performance Audit of DEL-JEN 

                                                                       Report No. 26-10-001-01-370

         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN 

                                     Report No. 26-10-001-01-370

                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective 1 –  Did DEL-JEN ensure compliance with Job Corps requirements 

for managing center safety programs?....................................................................... 4

         Finding 1 – For all three areas reviewed, DEL-JEN did not always 

            ensure compliance with Job Corps requirements for managing center 

            safety and health programs............................................................................. 4


Objective 2 – Did DEL-JEN ensure compliance with Job Corps requirements for 

reporting performance?................................................................................................ 8

         Finding 2 – For all four areas reviewed, DEL-JEN did not always ensure 

            compliance with Job Corps requirements for reporting performance. ............. 8


Objective 3 – Did DEL-JEN ensure compliance with Job Corps requirements for 

managing and reporting financial activity? .............................................................. 15

         Finding 3 – For all three areas reviewed, DEL-JEN generally ensured 

            compliance with Job Corps requirements for managing and reporting 

            financial activity. However, controls over segregation of duties in the 

            procurement of supplies and materials and payroll system access can 

            be improved. ................................................................................................. 15


Objective 4 –    Did the hotline complaints alleging improper management 

practices pertaining to staff hiring and firing decisions, student recreation funds, 

student government funds, student background checks and felon admissions, 

student medication used by staff, and center dental services provided to staff 

have merit?      .......................................................................................................... 16

         Finding 4 –          Two of seven hotline complaint allegations had some merit. ....... 16


Recommendations ...................................................................................................... 18


Appendices
         Appendix A Background ..................................................................................... 23

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 25

         Appendix C Acronyms and Abbreviations .......................................................... 31

         Appendix D DEL-JEN Response to Draft Report................................................ 33

         Appendix E Job Corps Response to Draft Report .............................................. 37

         Appendix F Acknowledgements ......................................................................... 39





                                                                                          Performance Audit of DEL-JEN 

                                                                                           Report No. 26-10-001-01-370

         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN 

                                     Report No. 26-10-001-01-370

                                     U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


November 3, 2009


                        Assistant Inspector General’s Report


Lynn A. Intrepidi
Interim National Director
Office of Job Corps
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of DEL-JEN,
Incorporated (DEL-JEN). DEL-JEN is under contract with Job Corps to operate four Job
Corps centers for the Department of Labor (DOL). Job Corps requires its center
operators to establish procedures and conduct periodic center audits to ensure integrity,
accountability, and prevention of fraud and program abuse. We had initially planned to
pursue three audit objectives at the Gainesville Job Corps Center. However, in
response to two hotline complaints, we added a fourth objective to determine the validity
of allegations that DEL-JEN officials engaged in improper practices at the Gainesville
and Albuquerque Job Corps Centers.

The audit objectives were to answer the following questions:

   1. Did DEL-JEN ensure compliance with Job Corps requirements for managing
      center safety programs?

   2. Did DEL-JEN ensure compliance with Job Corps requirements for reporting
      performance?

   3. Did DEL-JEN ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   4. Did the hotline complaints alleging improper management practices pertaining to
      staff hiring and firing decisions, student recreation funds, student government
      funds, student background checks and felon admissions, student medication
      used by staff, and center dental services provided to staff have merit?

This report covers our audit work conducted at DEL-JEN corporate administrative office
in Gardena, California; Gainesville Job Corps Center (Gainesville) in Gainesville,
Florida; and the Albuquerque Job Corps Center (Albuquerque) in Albuquerque, New
Mexico. Our audit work at Albuquerque was limited to validating the hotline complaint
allegations directed at Albuquerque. Additional background information is contained in
Appendix A.

                                                                       Performance Audit of DEL-JEN
                                             1                          Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

DEL-JEN did not ensure compliance with Job Corps requirements for safety in each of
the three areas we reviewed – safety inspections, safety committee meetings, and
student misconduct. While at Gainesville, we observed multiple safety- and
health-related deficiencies. Gainesville identified some of these deficiencies while
performing the center’s required weekly and monthly safety inspections, and noted them
during monthly Safety and Health Committee meetings. However, the inspections,
meetings, and resulting corrective action did not effectively eliminate the deficiencies we
observed. We also found that Gainesville did not report significant incidents, such as
physical assault, weapons possession, and narcotics possession to Job Corps as
required.

Additionally, DEL-JEN did not ensure compliance with Job Corps requirements for
reporting performance in each of the four areas we reviewed – Career Technical
Training (CTT) completions, General Educational Development (GED)/High School
Diploma (HSD) attainment, student Onboard Strength (OBS), and student
accountability. For CTT completions, DEL-JEN did not ensure students completed all of
the training tasks as required by Job Corps. For GED/HSD attainment, DEL-JEN did not
ensure high school diplomas were documented in students’ records as required. For
student OBS, DEL-JEN did not ensure Gainesville had required support for leave days
taken by students immediately prior to separation. For student accountability, DEL-JEN
did not ensure Gainesville accurately reported student participation in its off-center
Work-Based Learning (WBL) program and did not provide adequate assurance that the
participating students were in attendance, or received the intended WBL benefits. In
both the CTT and GED/HSD areas, we also identified segregation of duties and system
access control weaknesses that need to be corrected.

DEL-JEN generally ensured compliance with Job Corps requirements for managing and
reporting financial activity. However, procurement responsibilities for supplies and
materials need to be segregated and payroll system access needs to be limited to
minimize the risk of error or fraud.

Two of seven hotline complaint allegations had some merit. Those two allegations were
(1) an Albuquerque manager inappropriately ordered student medications for personal
use, and (2) an Albuquerque staff member inappropriately received dental services. We
did not substantiate the other five allegations, all directed to Gainesville —
(3) management intentionally under-ran student recreational services in order to cover
discretionary administrative over-runs, and this contributed to a riot at the center;


                                                                 Performance Audit of DEL-JEN
                                             2                    Report No. 26-10-001-01-370
                                     U. S. Department of Labor – Office of Inspector General


(4) student government association funds were misused; (5) the center stopped
performing required student background checks in Program Year (PY) 2007 and
improperly accepted students with felony records; (6) a manager circumvented DEL-
JEN’s human resources process and hired an unqualified former colleague; and (7) a
manager engaged in racially discriminatory hiring and firing practices.

We attributed weaknesses to inadequate center procedures, staff not following
established center procedures, and lack of supervision. Also, DEL-JEN’s corporate
center assessment at Gainesville did not consistently identify or address the deficient
areas discussed in this report. These control weaknesses compromise program
accountability in these areas and could impact operational decisions made by DEL-JEN
and Job Corps.

The Interim National Director, Office of Job Corps, concurred with our reported findings
and stated Job Corps will coordinate with the DEL-JEN Corporate Office to improve
corporate-level controls and monitoring over the Gainesville and Albuquerque Job
Corps Centers.

DEL-JEN agreed that it can improve its oversight to ensure better compliance with Job
Corps requirements for managing center safety and health programs, and that oversight
of Job Corps performance reporting can be strengthened. However, DEL-JEN
disagreed with the number of CTT exceptions we identified and with our conclusion that
OBS had been overstated at Gainesville.

We disagree with DEL-JEN’s contention that the TARs we reviewed met the
Department of Labor’s established guidelines for CTT completion. The deficiencies we
noted, such as task performance ratings not documented and tasks shown as
completed prior to students beginning training, clearly violate PRH requirements. We
also note that in response to our finding, DEL-JEN improved its center TAR audit
process by implementing an SOP requiring the instructor, CTT manager, and records
supervisor to audit all TARs for completeness and accuracy. The new SOP incorporated
a TAR audit checklist designed to ensure PRH compliance and to eliminate the types of
deficiencies we identified.

Our finding regarding overstated OBS at Gainesville remains unchanged, as the
additional supporting documentation provided by DEL-JEN did not comply with
applicable Job Corps requirements.

Recommendations

In summary, we recommended the National Director, Office of Job Corps, direct DEL-
JEN to improve controls and monitoring over all its centers to identify and correct any
non-compliance with Job Corps safety and health program and performance
requirements. We also recommended the National Director assess liquidated damages
against DEL-JEN for any performance overstatements, as appropriate.



                                                                Performance Audit of DEL-JEN
                                            3                    Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS

Objective 1 – Did DEL-JEN ensure compliance with Job Corps requirements for
              managing center safety programs?

Finding 1 – For all three areas reviewed, DEL-JEN did not always ensure
compliance with Job Corps requirements for managing center safety and health
programs.

DEL-JEN can improve its oversight to ensure compliance with Job Corps requirements
for managing safety and health programs. Gainesville was not always in compliance
with Job Corps requirements for safety in all three areas reviewed – safety inspections,
safety committee meetings, and student misconduct. While at Gainesville, we observed
multiple safety- and health-related deficiencies, including expired food available for use
in the cafeteria freezer, dead cockroaches in common areas, and dirty floors in the
wellness center. Gainesville did conduct the weekly and monthly safety inspections
required by Job Corps and identified some of these deficiencies. However, the
inspections and resulting corrective action did not effectively eliminate the deficiencies
we observed. Safe and healthy conditions are critical to ensuring students maintain the
wellness necessary to participate fully in their training and to maximize their benefit from
the program. DEL-JEN was also not able to provide documentation that monthly safety
and health committee meetings were consistently conducted at Gainesville during
July 2007 through May 2009. We also found that Gainesville did not report significant
incidents, such as physical assault, weapons possession, and narcotics possession, as
well as less serious behavioral incidents to Job Corps as required. Consequently, this
hindered Job Corps’ ability to monitor center safety, to ensure significant student
misconduct was handled appropriately, and to respond to negative press regarding
such incidents.

These deficiencies occurred, in part, because DEL-JEN did not ensure Gainesville
established policies and procedures for implementing effective corrective actions over
safety inspections, documenting safety committee meetings, and reporting significant
and other less serious incidents to Job Corps. In addition, DEL-JEN did not provide
adequate monitoring to ensure these required safety program activities were conducted
at the center. As a result, there was an increased likelihood that serious safety and
health hazards could have existed in the training, living, and working environment that
were not identified and corrected at the earliest opportunity.

Gainesville Safety Inspections Did Not Result In Effective Corrective Action

While we found that Gainesville conducted the weekly and monthly safety inspections
required by Job Corps, the inspections and resulting corrective action did not effectively
eliminate the deficiencies we observed. We conducted walkthroughs of nine of
Gainesville’s 13 buildings in June 2009 to observe conditions at the center. These
buildings were comprised of (1) administration, education, career technical training, and


                                                                 Performance Audit of DEL-JEN
                                             4                    Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


male dormitory; (2) food service, wellness center, and career technical training;
(3) flammable storage; (4) career transition; (5) maintenance and storage; (6) biohazard
storage; (7) gymnasium; (8) women’s dormitory; and (9) recreation. We noted the
following unsafe or unhealthy conditions:

   •	 Expired food in the cafeteria freezer (including a can of refried beans, dated
      January 1, 2000; two cans of tuna dated January 22, 2000; nine bags of tortilla
      chips dated March 27, 2009; six tubs of ricotta cheese dated May 18, 2009; and
      a package of sliced roast beef dated May 28, 2009);
   •	 Large pile of loose garbage attracting flies and emanating a stench outside the
      female dormitory, and loose garbage behind the center’s bio-hazardous waste
      storage site;
   •	 Dead cockroaches left for several days on the floor of the female staff restroom,
      across from the storage room of the administrative building, and in a utility
      drawer of the concession stand in the recreation center;
   •	 Dirty floors and walls in the wellness center and cafeteria kitchen;
   •	 Dirty bathrooms near the cafeteria with overflowing garbage cans;
   •	 Power cords, power strip, and wiring connected to the basketball scoreboard
      hanging down to the floor of the gymnasium and accessible to students;
   •	 Light switch with exposed wiring in a classroom hallway; and
   •	 Water and ice on the floor of the cafeteria.

Gainesville identified similar deficiencies during its weekly and monthly safety
inspections. In fact, monthly Safety and Health Committee meeting minutes from July
2007 through May 2009 show that expired food, roaches, and trip hazards were
identified and discussed. Similarly, one year prior to our observations, DEL-JEN’s June
2008 corporate center assessment resulted in a report to Gainesville management that
stated:

   •	 In the area of inspections, the multitude of deficiencies noted indicates that
      center inspections were not effective;
   •	 In the area of food storage, not all food was dated and labeled. The most recent
      local health inspection violations had not been corrected. Maintaining cleanliness
      was not a priority;
   •	 In the area of food handling, food service practices did not meet local, state, and
      U.S. public health service food codes – trash can was not covered, flour
      container was not labeled, some refrigerator and freezer food was not labeled
      and dated, an ice tripping hazard in the walk-in freezer, and
   •	 In the area of food service, cafeteria cleanliness needed to be upgraded.

The unsafe and unhealthy conditions we observed occurred because center and
corporate oversight did not place adequate emphasis on ensuring safety inspections
identified deficiencies effectively, and deficiencies that were identified were corrected to
prevent reoccurrence. It is critical at each DEL-JEN center to ensure students and staff
members are protected through timely identification and correction of unsafe or
unhealthy conditions. Conducting effective safety inspections and ensuring corrective

                                                                 Performance Audit of DEL-JEN
                                             5                    Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


actions are also effective and fully implemented are essential tools for management in
the maintenance of safe and healthy facilities.

DEL-JEN generally concurred with our conclusion and acknowledged that controls need
to be improved. However, they noted the large pile of garbage was an isolated incident
due to a change of contractor, and the dead cockroaches were the result of the center’s
ongoing pest control service.

Gainesville Was Not in Compliance with Safety Committee Meeting Requirements

PRH Appendix 505 requires centers to establish a Safety and Health Committee to:

   •	 Review reported accidents, injuries, and illnesses;
   •	 Consider the adequacy of actions to prevent recurrence of such accidents,
      injuries, or illnesses;
   •	 Plan, promote, and implement DOL and Job Corps safety and occupational
      health programs; and
   •	 Meet monthly and maintain records of the minutes for at least three years.

DEL-JEN was not able to provide documentation that all required monthly Safety and
Health Committee meetings were conducted at Gainesville during July 2007 through
May 2009. The center did not maintain the required Safety and Health Committee
meeting minutes for 12 of the 23 months. These deficiencies occurred, in part, because
DEL-JEN had not established Standard Operating Procedures (SOPs) for conducting
and documenting the meetings at Gainesville. While Job Corps does not require SOPs
for committee meetings, SOPs at Gainesville would have provided center staff with the
guidance needed to comply with the Job Corps requirements. Additionally, DEL-JEN
corporate and center management did not provide adequate oversight to ensure the
committee meetings were held and documented as required. Regular Safety and Health
Committee meetings, along with effective inspections and corrective actions, will
increase the center’s ability to identify and correct safety and health concerns at the
earliest opportunity.

DEL-JEN generally concurred with our conclusion and acknowledged that controls need
to be improved. In addition, they stated the deficiencies noted were due to poor
management of the center’s safety and health program.

Significant Incidents of Student Misconduct Were Not Reported to Job Corps

Gainesville did not take appropriate actions to ensure all significant incidents of student
misconduct were reported to Job Corps. The PRH Chapter 5.5 requires centers to
report all significant incidents to Job Corps, including:

   •	Physical assault;
   •	 Indication that a student is a danger to himself/herself or others;
   •	 Incident involving police involvement;

                                                                 Performance Audit of DEL-JEN
                                             6                    Report No. 26-10-001-01-370
                                                 U. S. Department of Labor – Office of Inspector General


      •	 Incident involving illegal activity; and
      •	 Incident attracting potentially negative media attention.

We reviewed records for 100 percent of the 84 Gainesville students who were
separated from the center due to level I infractions during PY 2007. 1 From this
population, we identified 38 significant incidents reportable to Job Corps (positive drug
tests are not reported). We found that 29 (76 percent) of these 38 significant incidents
were not reported to Job Corps as required. The significant incidents involved a total of
42 students and included physical assault, weapons possession, and narcotics
possession. This information is summarized in Table 1.


                  Table 1: Significant Incidents Not Reported to Job Corps

    Incident Description                         No. of Incidents No. of Students
    Physical assault that caused bodily harm
    to student or staff                                        11              18
    Possession of gun or other weapon on
    center or under center supervision                           2              2
    Possession, distribution, or sale of drugs
    on center or under center supervision                      16              22
                                          Totals               29              42

Underreporting of significant incidents impacts Job Corps’ ability to

      •	 adequately provide data for analysis of trends to support management and policy
         decisions;
      •	 allow the National and Regional Offices to monitor compliance with policy and
         regulations regarding serious incidents;
      •	 respond to the press regarding serious incidents; and
      •	 ensure the centers take appropriate action regarding the incidents being 

         reported. 


Gainesville’s underreporting of significant incidents occurred because DEL-JEN lacked
sufficient oversight to ensure compliance with the Job Corps requirement. Both DEL-
JEN and Gainesville did not have procedures in place to ensure that the center reported
significant incidents to Job Corps. Moreover, DEL-JEN’s June 2008 corporate
assessment of Gainesville incorrectly concluded that, “all reportable events are
recorded and entered appropriately” and “the center manages these incidents and
reporting very well.” DEL-JEN told the OIG that the underreporting of significant
incidents we identified was due to poor oversight on the part of a former center manager
and that he was the only center designated staff member that reported incidents in the
Significant Incident Reporting (SIR) system. Gainesville has since taken immediate

1
 Job Corps centers rate student misconduct based on the seriousness of the infraction using a scale of Level I
(e.g. physical assault that causes bodily harm) to Level III (e.g. gambling), with Level I as the most serious.

                                                                                   Performance Audit of DEL-JEN
                                                          7                         Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


corrective action to ensure SIRs are reported in a timely manner. Also, the center has
implemented a quality control feature in the SIR system by designating a primary and
secondary staff member responsible for reporting and documenting SIRs to Job Corps.
According to DEL-JEN, the center director will review and audit a SIR summary report
monthly to ensure SIRs are reported in a timely manner to Job Corps.

In response to our draft report, both Job Corps and DEL-JEN concurred with our audit
results for safety inspections, safety committee meetings, and significant incident
reporting. The National Office of Job Corps concurred with our reported findings and
recommendations. Job Corps will coordinate with the DEL-JEN Corporate Office to
improve corporate-level controls and monitoring over the Gainesville and Albuquerque
Job Corps Centers. This will include identifying and correcting any non-compliance
issues with Job Corps’ safety and health program. DEL-JEN concurred that it can
improve its oversight to ensure better compliance with Job Corps requirements for
managing center safety and health programs.

Objective 2 – Did DEL-JEN ensure compliance with Job Corps requirements for
              reporting performance?

Finding 2 –    For all four areas reviewed, DEL-JEN did not always ensure
               compliance with Job Corps requirements for reporting
               performance.

DEL-JEN can improve its centers’ performance reporting to Job Corps for all four of the
areas we reviewed for Gainesville - CTT completions, student OBS, student
accountability, and GED/HSD attainment.

For CTT completions, students at Gainesville did not complete all of the training tasks
required by Job Corps. Incomplete tasks could impact a student’s ability to obtain and
maintain employment in the vocation in which the student was trained. For student
OBS, staff at Gainesville did not consistently ensure leave days taken by students
immediately prior to separation were supported as required. Documenting approved
leave is critical to ensuring students are accounted for. For student accountability, DEL-
JEN did not ensure Gainesville accurately reported student participation in its off-center
WBL program and did not provide adequate assurance that the participating students
were in attendance, or received the intended WBL benefits. For GED/HSD attainment,
DEL-JEN did not ensure high school graduations were supported by diplomas or
transcripts and certificates as required. In both the CTT and GED/HSD areas, we also
identified segregation of duties and system access control weaknesses that need to be
corrected.

These deficiencies occurred because DEL-JEN’s controls over these areas need
improvement. The control weaknesses included inadequate center procedures, staff not
following established center procedures, and lack of supervision. Additionally, DEL-
JEN’s corporate oversight at Gainesville did not effectively address the deficiencies we
identified in these areas.


                                                                 Performance Audit of DEL-JEN
                                             8                    Report No. 26-10-001-01-370
                                    U. S. Department of Labor – Office of Inspector General



CTT Completions Not in Compliance at Gainesville

Gainesville reported students with incomplete Training Achievement Records (TARs) as
CTT completers in their reported performance for PY 2007. PRH Chapter 3.13 requires
centers to (1) ensure student progress is documented on TARs as progress occurs; and
(2) document that students are proficient at all tasks listed on the TARs.

We reviewed a statistical sample of 81 out of the 277 students reported by Gainesville
as CTT completers during PY 2007. Our review showed that 7 (or about 9 percent) of
the 81 TARs tested were not consistent with PRH requirements because one or more
tasks were not completed as required. The TAR deficiencies found included:

      •	 One TAR (pantry cook) was missing from the student’s record;
      •	 One TAR (phlebotomy technician) had a page missing (9 tasks) and
         contained an additional 17 tasks that were shown as completed prior to the
         student starting the CTT program;
      •	 Two TARs (pantry cook and carpentry helper) contained a total of 4 tasks that
         were not documented as completed; and
      •	 Three TARs (pantry cook, nurse assistant, and phlebotomy technician)
         contained a total of 25 tasks that were shown as completed prior to the
         students starting the CTT programs.

Incomplete tasks could impact a student’s ability to obtain and maintain employment in
the vocation in which the student was trained.

While DEL-JEN had established internal controls to ensure proper TAR completion, it
did not place adequate emphasis on ensuring the controls were working and effective.
These controls included periodic corporate audits of center performance data and TAR
audits conducted by center management and key staff. In addition, during its annual on-
site June 2008 corporate assessment, DEL-JEN found that separations were being
completed in Job Corps’ Center Information System (CIS) without the presence of the
TAR to authenticate the level of completion and dates of participation in the career
technical class. As a corrective action, Gainesville implemented a new policy to ensure
TARs were submitted to the records department prior to students’ separation.

DEL-JEN acknowledged that five of the incomplete TARs we identified were not
acceptable, but also believed that two met Job Corps’ established guidelines for
vocational completions. We continue to assert that the TARs for all seven of our
exceptions were not completed as required for the reasons previously noted. In
response to our finding, DEL-JEN improved its center TAR audit process by
implementing an SOP, effective June 22, 2009, for the instructor, CTT manager, and
records supervisor to audit all TARs for completeness and accuracy. The new
procedure incorporated a TAR audit checklist designed to ensure PRH compliance and
to eliminate the types of deficiencies we identified.



                                                               Performance Audit of DEL-JEN
                                           9                    Report No. 26-10-001-01-370
                                         U. S. Department of Labor – Office of Inspector General


The PRH also stipulated liquidated damages of $750 be assessed for each invalid CTT
completion. PRH Chapter 5.1 allows Job Corps discretion when assessing liquidated
damages. As such, DEL-JEN may owe DOL $5,250 for the 7 students we identified as
having incomplete TARs of the 81 students sampled. Projecting these statistical sample
results to the 277 CTT completions reported for PY 2007, we are 90 percent confident
that between 12 and 36 of the 277 students did not complete the vocation as required
and between $9,000 and $27,000 may be owed to DOL for Gainesville students with
incomplete TARs. 2

Table 2 shows the incomplete TARs we identified at Gainesville and our calculation of
potential liquidated damages.


               Table 2 Potential Liquidated Damages Due to PRH TAR Violations

    Vocational Occupation                No. of Students With          Liquidated Damages
                                            Incomplete TARs         (No. of Students x $750)
    Pantry Cook                                             3                         $2,250
    Phlebotomy Technician                                   2                         $1,500
    Carpentry helper                                        1                           $750
    Nurse Assistant                                         1                           $750
     Totals 7                                                                         $5,250

The Office of Job Corps stated that it appeared we applied Job Corps policy
appropriately, and that our results have led Job Corps to strengthen and clarify current
policy that involves the CTT completion issues we identified. During the audit, Job
Corps issued revised policy that is intended to ensure students receive the required
training while reducing the documentation requirements for CTT completions. Given Job
Corps’ discretion in assessing liquidated damages, and the new policy, Job Corps
needs to determine the amount of liquidated damages DEL-JEN owes the government.

Segregation of Duties and CIS Access Controls Are Needed for CTT Completions

DEL-JEN did not ensure compliance with internal control standards for segregating the
duties of the CTT manager. Government Accountability Office (GAO) Standards for
Internal Control in the Federal Government (November 1999) state that key duties and
responsibilities need to be divided or segregated among different people to reduce the
risk of error or fraud. We found that at least one CTT completion credit was entered in
CIS by the CTT manager during PY 2007. This occurred due to a lack of SOPs for
segregating the duties of the CTT manager, and may lead to an increased risk of error
or fraud since the performance of the CTT manager is linked to the number of CTT
credits earned by the center. In response to our finding, DEL-JEN developed an SOP,
effective June 22, 2009, to ensure that only the records supervisor and records
specialist enter CTT completion credits in CIS.

2
    The point estimate is 24 students.

                                                                    Performance Audit of DEL-JEN
                                               10                    Report No. 26-10-001-01-370
                                    U. S. Department of Labor – Office of Inspector General



Furthermore, DEL-JEN did not ensure compliance with internal control standards for
providing adequate access restrictions to CIS. The GAO internal control standards state
that access to resources and records should be limited to authorized individuals, and
accountability for their custody and use should be assigned and maintained. As of
June 12, 2009, a total of 198 Gainesville staff members had access to enter CTT
completion credits in CIS. This occurred due to a lack of an SOP on access restrictions
to enter CTT completion credits in CIS, and may lead to an increased risk of errors,
fraud, misuse, or unauthorized alteration of CTT completion credits. In response to our
finding, DEL-JEN restricted access to enter CTT completion credits to the records
supervisor and records specialist.

Student OBS and Student Accountability Were Not Properly Reported

DEL-JEN did not consistently comply with Job Corps requirements in two areas relating
to student OBS and student accountability – (1) documenting and supporting student
administrative leave, Present for Duty Off-Center (PDOF), and off-center WBL
immediately prior to separation; and (2) providing support for attendance at off-center
WBL activities.

Student OBS Overstated at Gainesville

Gainesville did not report student attendance as required by PRH Chapter 6.1.
Specifically, Gainesville did not provide assurance that student administrative leave,
PDOF, and WBL were documented and approved as required by Job Corps. The leave
used was not consistently supported by the required leave forms, appropriate staff
approvals, or did not adhere to other PRH requirements.

The PRH established criteria for student attendance and leave and required students to
be separated from the program if unauthorized leave exceeds certain standards.
Student attendance was recorded in CIS, which calculated center OBS. Job Corps
defined OBS as “an efficiency measure that depicts the extent to which centers operate
at full capacity.” The PRH also requires center operators to separate students from the
program if students were absent from training in excess of certain standards.

We reviewed a judgmental sample of 26 out of 98 student files for students separated
during PY 2007 whose leave records indicated a pattern of at least 6 consecutive days
or who were placed on off-center WBL immediately prior to separation. We found that 9
(or 35 percent) of the 26 students should have been separated at an earlier date and
should not have been included in the center’s OBS calculation after that date. Table 3
summarizes the reasons for the PRH violations.




                                                               Performance Audit of DEL-JEN
                                          11                    Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General




                         Table 3 Reasons for PRH Violations

                                   No. of
 Leave Type                    Exceptions                  Reasons for PRH Violations
                                                        Missing interview or appointment
 PDOF                                     4                               documentation

 Medical Leave                            2                Missing third party verification
                                                        Missing WBL agreement, signed
 WBL                                      2        timecards, or performance evaluations

 Administrative Leave                     1                    Missing approval signature

We determined Gainesville retained the 9 students for a total of 183 days in violation of
the PRH, which overstated OBS. Gainesville’s contract with DOL states that liquidated
damages will be assessed for failure to comply with requirements for separating
students. DEL-JEN may need to pay a refundable cost to DOL for each day a student is
retained in violation of Job Corps requirements. This daily cost for Gainesville during
PY 2007 was $9.51. In total, DEL-JEN owes DOL $1,740 (183 days X $9.51) for the 9
students with separation violations we identified during our testing.

This occurred because DEL-JEN did not place adequate emphasis on ensuring that
reported leave was properly supported. In addition, during its annual on-site corporate
assessment in June 2008, DEL-JEN did not identify any deficiencies in the area of
student leave. In fact, DEL-JEN reported a positive observation, indicating that all leave
requests had appropriate signatures, and required DEL-JEN leave verification forms
were attached.

WBL Not Supported at Gainesville

Gainesville did not accurately report student participation in the center’s off-site WBL
program and did not provide adequate assurance that the students were in attendance
at their work sites or received the intended WBL program benefits. Job Corps requires
students participating in off-center WBL to obtain a written agreement with employers
detailing the student-specific provisions required for successful completion and
supervisory evaluations providing feedback about the student’s performance. Centers
are also required to obtain weekly timesheets from employers to ensure students were
in attendance at their work sites.

Gainesville provided us with a list of 75 students that participated in off-center WBL
during PY 2007. We judgmentally selected 11 of the 75 students and determined that
DEL-JEN did not ensure compliance with the Job Corps requirements for WBL. Our
results for the 11 student records reviewed are summarized as follows:



                                                                   Performance Audit of DEL-JEN
                                              12                    Report No. 26-10-001-01-370
                                     U. S. Department of Labor – Office of Inspector General


   •	 None of the 11 students had a written agreement with their employer detailing
      the student-specific provisions required for successful completion. The
      agreement would have included provisions for the employer to (1) provide direct
      supervision and workplace mentors to the student, (2) assist the student in
      achieving agreed upon career technical and academic skills, (3) document the
      student’s achievements and competencies, and (4) provide a safe work
      environment for the student.

   •	 None of the 11 students had weekly timesheets or evaluations completed by their
      employers. The timesheets provide assurance that participating students were in
      attendance at their work sites. The evaluations provide performance feedback to
      the center and students, and document that the students received the intended
      benefits of the WBL program.

Gainesville had SOPs that were consistent with Job Corps’ WBL requirements.
However, the noted deficiencies occurred because center management reviews of the
center’s compliance were not conducted. In addition, DEL-JEN did not provide
adequate oversight to ensure center staff followed the procedures. During its June 2008
corporate assessment of Gainesville, DEL-JEN identified similar program weaknesses,
such as incomplete WBL agreements, and missing WBL time cards and student
evaluations. However, DEL-JEN did not ensure its corrective actions and follow-up
efforts were effective in addressing and preventing these deficiencies from occurring in
the future.

In response to our finding, Gainesville implemented a WBL folder review process, in
which the student services manager would review each student’s WBL folder weekly to
ensure it consists of a signed WBL agreement; a signed time card for a selected week
worked; and a performance evaluation. Effective implementation of this control is
needed to ensure students are in attendance at their work sites and receive the
intended WBL program benefits.

Academic Completions Were Not Always Supported

Nothing came to our attention to indicate academic completions were overstated.
However, Gainesville did not always ensure high school diploma and GED attainments
were supported in the students’ records as required. PRH Chapter 3.11 requires that
each academic completion be supported by a high school diploma or GED certificate
maintained in the students’ records.

We statistically sampled 69 of the 174 students reported as attaining either a high
school diploma or GED certificate at Gainesville during PY 2007. We found that 26
(38 percent) of the students reviewed did not have a high school diploma or GED
certificate in their records to support attainment. Specifically, we found:




                                                                Performance Audit of DEL-JEN
                                           13                    Report No. 26-10-001-01-370
                                     U. S. Department of Labor – Office of Inspector General


   •	 25 student records did not contain copies of diplomas or transcripts received
      from SIATech, a public charter high school program that operates out of
      Gainesville; and
   •	 One student record did not contain a copy of a GED certificate.

We attributed this to a lack of an SOP to ensure academic completions were
documented as required. Specifically, the records department did not track the receipt
of high school diplomas received from SIATech or any of the online high school
programs offered by Gainesville to ensure they were documented in the students’
records. Thus, the noted deficiencies occurred because center management reviews of
the center’s compliance were not conducted. In addition, DEL-JEN did not provide
adequate oversight to ensure center staff adhered to PRH requirements. During its June
2008 corporate assessment, DEL-JEN did not identify any weaknesses pertaining to the
documentation of academic completions.

Adequate assurance that students graduated from the center’s academic programs is
not provided when the required supporting documentation is missing. During our audit,
Gainesville obtained and provided the OIG with official state certified copies of all
missing documentation, including the 25 SIATech high school diplomas and individual
transcripts, and the GED certificate.

Segregation of Duties and CIS Access Controls Are Needed

DEL-JEN did not comply with the GAO internal control standards for segregating the
duties of the academic manager. The academic manager entered GED and online HSD
completion credits in CIS, and the SIATech principal and registrar entered SIATech high
school completion credits in CIS. This occurred due to a lack of SOPs for segregating
the duties of the academic manager and SIATech principal and registrar, and may lead
to an increased risk of error or fraud since the performance of the academic manager
and SIATech principal is linked to the number of academic credits earned by the center.
However, nothing came to our attention to indicate HSD completions were overstated.
In response to our finding, DEL-JEN developed an SOP, effective June 22, 2009, to
ensure that only the records supervisor and records specialist enter both GED and HSD
completion credits in CIS.

Furthermore, DEL-JEN did not ensure compliance with the GAO internal control
standards for ensuring adequate access restrictions to CIS. As of June 12, 2009, 197
Gainesville staff members had access to enter academic completion credits in CIS. This
occurred due to a lack of SOPs providing for access restrictions to enter academic
completion credits in CIS, and may lead to an increased risk of errors, fraud, misuse, or
unauthorized alteration of academic completion credits. In response to our finding,
DEL-JEN restricted access to enter academic completion credits to the records
supervisor and records specialist.

In response to our draft report, Job Corps concurred with our audit results for CTT
completions, student OBS and accountability, and academic completions (including


                                                                Performance Audit of DEL-JEN
                                           14                    Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


segregation of duties and CIS access). The National Office of Job Corps concurred with
our reported findings and recommendations. Job Corps will coordinate with the
DEL-JEN Corporate Office to improve corporate-level controls and monitoring over the
Gainesville and Albuquerque Job Corps Centers. This will include developing and
implementing a corrective action plan to address performance requirements. The
Atlanta Regional Office in coordination with the Regional Contracting Officer will
determine the extent of any liquidated damages resulting in overstated CTT and/or OBS
completions at the Gainesville Job Corps Center.

DEL-JEN agreed that oversight of Job Corps performance reporting can be
strengthened. However, DEL-JEN disagreed with the number of CTT exceptions we
identified. DEL-JEN acknowledged that 5 TARs were invalid but believed that the
remaining 14 exceptions met DOL’s established guidelines for vocational completion.
DEL-JEN also believed student OBS was not overstated at Gainesville. We continue to
believe the TARs did not provide sufficient evidence to show the students were
proficient at all the required tasks. We also disagreed that student OBS was not
overstated at Gainesville because the additional supporting documentation provided by
DEL-JEN did not comply with applicable Job Corps requirements.

Objective 3 – Did DEL-JEN ensure compliance with Job Corps requirements for
managing and reporting financial activity?

Finding 3 – For all three areas reviewed, DEL-JEN generally ensured compliance
            with Job Corps requirements for managing and reporting financial
            activity. However, controls over segregation of duties in the
            procurement of supplies and materials and payroll system access
            can be improved.

DEL-JEN and Job Corps generally ensured compliance with Job Corps requirements for
managing and reporting financial activity. However, we noted two internal control
weaknesses pertaining to a lack of segregation of duties in the area of expendable
supplies and materials procurement, and inadequate access control in the area of
payroll. Our methodology for evaluating DEL-JEN’s financial activities is summarized in
Appendix B.

Segregation of Duties and Payroll Access Controls Are Needed

DEL-JEN can improve its controls to ensure procurement for expendable supplies and
materials is appropriate. DEL-JEN did not comply with the GAO internal control
standards for segregating the duties of the Gainesville inventory clerk. The inventory
clerk was responsible for ordering, receiving, and conducting inventory for expendable
supplies and materials to be stored in the center’s warehouse. These multiple
responsibilities assigned to one individual increased the risk of errors or fraud since the
inventory clerk was responsible for the entire procurement process. This occurred due
to a lack of SOPs for segregating the duties of the inventory clerk. During our audit,
DEL-JEN developed an SOP, effective June 22, 2009, to ensure that purchase


                                                                 Performance Audit of DEL-JEN
                                             15                   Report No. 26-10-001-01-370
                                     U. S. Department of Labor – Office of Inspector General


requisitions for expendable supplies and material orders are initiated by the center
finance department.

Additionally, DEL-JEN did not ensure appropriate access to automated payroll
information as required by the GAO internal control standards. The DEL-JEN corporate
payroll clerk and tax accountant both had the ability to enter and change their personal
payroll information in the Job Cost Accounting Management Information System. The
potential for inappropriate access increased the risk of errors, fraud, misuse, or
unauthorized alteration of staff payroll information. This occurred due to a lack of SOPs
and system controls to limit the ability of payroll department staff to alter their own
payroll information. During our audit, DEL-JEN contacted its software vendor and
requested a security update in their next release, which would prevent any employee
from accessing and altering their own payroll information. In the meantime, DEL-JEN
will periodically monitor any changes made to employees’ pay information using an
audit report program, which identifies the initiator of any payroll changes.

In response to our draft report, both Job Corps and DEL-JEN concurred with our audit
results for the hotline compliant allegations, including the segregation of duties and
documentation issues we identified. The National Office of Job Corps concurred with
our reported findings and recommendations. The Atlanta and Dallas Regional Job
Corps Offices will coordinate with the DEL-JEN Corporate Office to improve corporate-
level controls and monitoring over the Gainesville and Albuquerque Job Corps Centers.
DEL-JEN concurred with our findings and has segregated the duties of the buyer and
revised access to its payroll system.

Objective 4 – Did the hotline complaints alleging improper management practices
              pertaining to staff hiring and firing decisions, student recreation
              funds, student government funds, student background checks and
              felon admissions, student medication used by staff, and center
              dental services provided to staff have merit?

Finding 4 –    Two of seven hotline complaint allegations had some merit.

The allegations that an Albuquerque manager inappropriately ordered student
medications for personal use, and an Albuquerque staff member inappropriately
received dental services had some merit. We did not substantiate the remaining five
allegations.

Albuquerque Manager Ordered Student Medications for Personal Use

The allegation that an Albuquerque manager used Job Corps funds to purchase at least
two prescription medications, including one controlled substance, for personal use had
some merit. DEL-JEN provided us with documentation that it discovered the manager
used medication intended for students in January 2008 and required the manager to
resign and self-report to the State of New Mexico Board of Nursing, which she did.
However, controls at the center need strengthening to ensure medications are properly


                                                                Performance Audit of DEL-JEN
                                            16                   Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


accounted for. We identified two control weaknesses pertaining to a lack of segregation
of duties in the area of prescription medication management, and a lack of
documentation supporting appropriate prescription medication purchases.

Lack of Segregation of Duties

DEL-JEN did not ensure compliance with the GAO internal control standards relating to
the segregation of duties. The Albuquerque wellness manager had the ability to both
order and receive prescription medications without involving another wellness staff
member to ensure accountability. As such, the center risked inappropriate medication
purchases going undetected. This occurred due to a lack of an SOP for segregating the
duties of the wellness manager. During our audit, DEL-JEN revised its February 2007
SOP to ensure that all medications are logged by two medical personnel; two medical
staff sign and date when they receive medications, prescriptions, or purchase orders;
and the administrative director conducts a weekly audit of all medications to review the
supporting documents for ordering and receiving the medications.

Lack of Documentation

DEL-JEN did not ensure documentation was maintained to support appropriate
prescription medication purchases. The GAO internal control standards state that all
transactions and other significant events need to be clearly documented and the
documentation should be readily available for examination. We found that purchase
requests for student prescription medications were not supported by any documentation
and therefore not traceable to the student requiring the medication. The lack of
supporting documentation increased the risk that inappropriate medication purchases
could go undetected. This occurred because center SOPs for purchasing prescription
medications did not require an audit trail be created for the purchases. During our audit,
Albuquerque revised its SOP to require documentation to support appropriate
prescription medication purchases.

Albuquerque Staff Received Dental Services at the Center

The allegation that an Albuquerque staff member improperly received dental services at
the center in July 2007 had merit. DEL-JEN provided us with documentation that it
discovered the problem in August 2007 and required the staff member to refund to the
center the cost of the service provided, which she did. DEL-JEN identified the problem
timely and we found no indication of control weaknesses in this area.

Five Allegations Did Not Have Merit

The remaining five hotline complaint allegations were not substantiated. The specific
allegations were as follows:




                                                                 Performance Audit of DEL-JEN
                                            17                    Report No. 26-10-001-01-370
                                     U. S. Department of Labor – Office of Inspector General


   •	 Gainesville management intentionally under-ran student recreational services in
      order to cover discretionary administrative over-runs, and this contributed to a riot
      at the center.

   •	 Gainesville management used student government association funds to 

      inappropriately purchase center equipment. 


   •	 Gainesville stopped doing background checks during PY 2007 and accepted
      students with felony records.

   •	 A Gainesville manager circumvented DEL-JEN’s human resources process and
      hired an unqualified former colleague.

   •	 A Gainesville manager engaged in racially discriminatory hiring and firing 

      practices. 


During the audit, we found no evidence that Gainesville or DEL-JEN engaged in these
five improper practices, as alleged. Our methodology for validating the merit of the
complaint allegations is summarized in Appendix B.

DEL-JEN acknowledged that two of the seven hotline complaint allegations had some
merit and stated that corrective action has already been initiated by the Albuquerque
Job Corps Center to prevent the improprieties from reoccurring.

RECOMMENDATIONS

We recommend that the National Director, Office of Job Corps, require DEL-JEN to:

   1. Introduce and improve controls (such as SOPs) and monitoring over all centers
      to identify and correct any non-compliance with Job Corps safety and health
      program requirements and periodically test those controls to determine
      effectiveness. The controls and monitoring should ensure safety and health
      inspections are thorough and result in timely identification and correction of
      unsafe and unhealthy conditions.

   2. Improve the effectiveness of supervisory oversight to staff responsible for 

      complying with Job Corps performance reporting requirements. 


   3. Improve the effectiveness of data integrity audits conducted at each DEL-JEN
      center to identify any systemic non-compliance with Job Corps performance
      reporting requirements. These audits should continue to assess PRH compliance
      with all elements of performance reporting including student achievement,
      student OBS, and student attendance.




                                                                Performance Audit of DEL-JEN
                                            18                   Report No. 26-10-001-01-370
                                                  U. S. Department of Labor – Office of Inspector General


       4. Implement corrective action plans when PRH non-compliance is identified during
          data integrity audits. The corrective actions should include providing Job Corps
          with any adjustments to previously reported performance data.

       5. Improve controls and monitoring over the segregation of duties in the 

          procurement of supplies and materials. 


       6. Improve controls and monitoring over payroll system access.

Also, we recommend that the National Director:

       7. Determine the extent of any liquidated damages resulting from overstated CTT
          completions and OBS at each Job Corps Center operated by DEL-JEN and
          require DEL-JEN to pay liquidated damages for any overstatements. This
          includes liquidated damages we estimated to be in the range of $9,000 to
          $27,000 at a 90 percent confidence level for incomplete CTT completions 3 at
          Gainesville, and $1,740 for not separating students at Gainesville as required by
          Job Corps.

We appreciate the cooperation and courtesies extended to us by Job Corps and DEL-
JEN personnel during the audit.

OIG personnel who made major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




3
    The point estimate based upon the sample is $18,000 for overstated CTT completions.

                                                                                  Performance Audit of DEL-JEN
                                                          19                       Report No. 26-10-001-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN
               20                    Report No. 26-10-001-01-370
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                          Performance Audit of DEL-JEN
                     21                    Report No. 26-10-001-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN
               22                    Report No. 26-10-001-01-370
                                       U. S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor, Office of the Secretary, Office of Job
Corps, under the leadership of the national director, supported by a national office staff
and a field network of regional offices of Job Corps.

The purpose of Job Corps is to assist the nation’s at-promise youth ages 16 through 24
who need and can benefit from a comprehensive program, operated primarily in the
residential setting of a Job Corps center, to become more responsible, employable, and
productive citizens.

As a national primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education. Education,
training and support services are provided to students at Job Corps center campuses
located throughout the United States and Puerto Rico. Job Corps centers are operated
for DOL by private companies through competitive contracting processes, and by inter-
agency agreements with other Federal agencies.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a 3-year period. The Code of
Federal Regulations (CFR) states all Job Corps centers are to be reviewed over the
3-year period. Job Corps requires its center operators to establish procedures and
conduct periodic center audits to ensure integrity, accountability, and prevention of fraud
and program abuse.

DEL-JEN’s corporate headquarters are located in Clarksville, Tennessee. The company
also has an administrative office located in Gardena, California; and an Education and
Training Group headquarters located in Phoenix, Arizona. DEL-JEN operates four Job
Corps centers – Gainesville (Gainesville, Florida), Albuquerque (Albuquerque, New
Mexico), Mississippi (Crystal Springs, Mississippi) and Kittrell (Kittrell, North Carolina) –
under contract with DOL. The four centers serve residential and non-residential
students. DEL-JEN provides career technical training and job placement services to
more than 6,000 students annually. More than 1,500 of these students live and study
on-campus. The company’s responsibilities include career technical training, academic
education, social development, employability skills, counseling, and work-based
learning. DEL-JEN has responsibility for Job Corps’ students 24-hours a day and seven
days a week; and provides housing, food service, security, facility maintenance, and
medical services.




                                                                  Performance Audit of DEL-JEN
                                             23                    Report No. 26-10-001-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN
               24                    Report No. 26-10-001-01-370
                                           U. S. Department of Labor – Office of Inspector General


                                                                                    Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

       1. Did DEL-JEN ensure compliance with Job Corps requirements for managing
          center safety programs?

       2. Did DEL-JEN ensure compliance with Job Corps requirements for reporting
          performance?

       3. Did DEL-JEN ensure compliance with Job Corps requirements for managing and
          reporting financial activity?

       4. Did the hotline complaints alleging improper management practices pertaining to
          staff hiring and firing decisions, student recreation funds, student government
          funds, student background checks and felon admissions, student medication
          used by staff, and center dental services provided to staff have merit?

Scope

This report is a summary of our audit work conducted at DEL-JEN’s administrative office
in Gardena, California; the Gainesville Job Corps Center in Gainesville, Florida; and the
Albuquerque Job Corps Center in Albuquerque, New Mexico. We reviewed center
safety, and performance and financial data for PY 2007 4 . Audit work for objectives 1-3
was performed at the Gainesville Job Corps Center, and audit work for objective 4 was
performed at both the Gainesville and Albuquerque Job Corps centers. We had initially
planned to pursue three audit objectives at the Gainesville Job Corps Center. However,
in response to two hotline complaints, we added a fourth objective to determine the
validity of allegations that DEL-JEN officials engaged in improper practices at the
Gainesville and Albuquerque Job Corps Centers.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations, and Job Corps policies and procedures. We also obtained an
4
    July 1, 2007, through June 30, 2008.

                                                                      Performance Audit of DEL-JEN
                                                 25                    Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


understanding of DEL-JEN’s processes, policies, and procedures for managing center
safety and reporting financial and performance information to Job Corps. We
interviewed DEL-JEN’s corporate officials at DEL-JEN’s administrative office in
Gardena, California, and conducted interviews with various DEL-JEN corporate
management officials at several different field sites.

At the administrative office, we performed walkthroughs of DEL-JEN’s corporate
processes and identified and evaluated DEL-JEN’s internal controls over center safety,
performance, and financial reporting. We assessed risks related to financial and
performance misstatement and evaluated DEL-JEN’s overall control environment.

We selected one DEL-JEN center location – Gainesville – for detailed testing of center
safety, financial activity, and performance data. We selected Gainesville based on a risk
assessment, which considered a number of variables, including size of operations, the
results of a prior Job Corps regional office assessment, hotline complaints, and OIG and
Job Corps management concerns. We selected Albuquerque based on a hotline
complaint we received in August 2007. We assessed the reliability of related data for
the applicable audit period and determined that the data were sufficiently reliable to
accomplish our audit objectives. We used a combination of statistical and judgmental
sampling to select the items tested at these centers. Judgmentally selected items, which
cannot be projected to the intended population(s) were chosen based on a number of
factors including known deficiencies (i.e., related audit concerns identified in prior OIG,
DOL, and DEL-JEN reports), inquiries of and information provided by Job Corps, DEL-
JEN, and center personnel; and the nature of certain transactions (e.g., high dollar
value, and susceptibility to theft or manipulation). Our methodology is described as
follows:

Gainesville

Center Safety and Health

To gain a better understanding of the center’s safety and health program, we
interviewed key DEL-JEN and center officials and staff, reviewed applicable policies and
procedures, performed walkthroughs, and conducted a physical review of the center’s
facilities. We also evaluated the results of corporate and DOL regional office
assessments of center safety and health processes, safety and health committee
meeting minutes, inspection reports, and center buildings to determine whether
Gainesville effectively identified and corrected safety and health deficiencies. We also
performed physical inspections to ensure that there were no apparent facility safety and
health issues and to ensure that problems identified by center, corporate, and DOL
reviews were corrected.

We reviewed 100 percent of the population of 84 students who incurred level I
infractions resulting in disciplinary separations during PY 2007 to identify students who
were involved in significant incidents reportable to Job Corps. We then compared the
names and descriptions associated with these students and incidents to the student


                                                                 Performance Audit of DEL-JEN
                                            26                    Report No. 26-10-001-01-370
                                       U. S. Department of Labor – Office of Inspector General


names and incident descriptions documented in the 18 SIRs reported to Job Corps
during PY 2007 to determine whether any significant incidents involving students with
level I infractions were not reported to Job Corps as required.
We also judgmentally reviewed student files for students who separated during PY 2007
and PY 2008, and who incurred level I, II, and III disciplinary infractions. Specifically, we
selected students with level I infractions with the top 10 longest enrollment periods, all
students with level II infractions involving sexual harassment, all students with level III
infractions involving overt sexual behavior, and all students who were separated as a
result of their involvement in the May 2, 2009, riot on center. Our review was to
determine if Gainesville met the PRH requirements for convening fact-finding boards
and behavior review panels. To accomplish this, we reviewed the student records and
disciplinary files to identify infractions committed by the students and compared the
actions Gainesville took regarding the infractions to the requirements for convening fact-
finding boards and behavioral review panels.

In addition, we reviewed 100% of the population of 5,207 entries contained in
Gainesville’s security logbook for July 2007 to determine whether all behavioral
infractions were reported in Job Corps’ CIS.

Performance Reporting

We interviewed key DEL-JEN and center officials and staff, reviewed applicable policies
and procedures, reviewed prior audit reports, and performed walkthroughs to gain a
better understanding of the center’s system for collecting, recording, processing, and
reporting performance data. We reviewed corrective actions taken by DEL-JEN for
instances noted on corporate assessment reports. We used a combination of random
and judgmental sampling to examine performance reporting.

To determine if reported CTT completers had supporting TAR documentation in
compliance with PRH requirements, we reviewed a statistical sample of 81 out of the
277 students reported by Gainesville as CTT completers. We reviewed each student
TAR for a number of attributes, including tasks not documented as having been
completed (that is, lacked required instructor/student sign-offs, completion dates,
proficient performance ratings); task completion dates occurring outside of student’s
trade enrollment; tasks excluded without proper approval; and the reasonableness of
time noted to complete tasks.

To determine if controls over student leave and attendance were in place, we reviewed 100
percent of the population of 98 students separated during PY 2007 whose records
indicated a pattern of at least 6 consecutive days of administrative leave and Absent
Without Leave (AWOL) immediately prior to separation. We calculated leave days taken for
unsupported leave. We reviewed student records to identify (1) whether a student placed
on leave had a leave request form completed, and (2) whether student leave request forms
located in student records had proper signature approvals or authorizations consistent with
the leave status type as required by the PRH (Exhibit 6-1). We also reviewed the
population to determine if attempts were made to contact AWOL students. We did this by


                                                                  Performance Audit of DEL-JEN
                                             27                    Report No. 26-10-001-01-370
                                                 U. S. Department of Labor – Office of Inspector General


reviewing student records to determine whether counselor case note documentation was
present for each incident an AWOL was reported on the Employment and Training
Administration (ETA) form 640. We further reviewed this population to determine whether
the center adhered to PRH requirements for placing students on PDOF status. We did this
by reviewing student records for students who were on 10 training days of PDOF either
immediately or one day immediately prior to separation to determine whether there was
evidence of pre-arranged and verifiable job interviews, appointments to visit or contact the
Career Transition Services specialist, and approval of PDOF leave. Finally, we reviewed
leave, AWOL, and sign-in documentation to ensure that a selected morning report was fully
supported.

To determine whether controls over students on WBL were in place, we reviewed a
judgmental selection of students who separated from Gainesville during PY 2007 and
who were placed on off-center WBL. We reviewed a judgmental selection of 11 students
by selecting one student from each month 5 during PY 2007 who worked for a different
WBL employer and during a selected work week to determine whether there was
evidence of signed time cards, performance evaluations, and signed WBL agreements
with student-specific provisions.

To determine whether students reported as GED/HSD completers were accurately
reported, we reviewed a statistical sample of student records (69 out of a population of
174) that Gainesville claimed as earning GED certificates and High School Diplomas
during PY 2007. To verify GED/HSD attainment, we reviewed each student file for
copies of certificates/diplomas and score reports/transcripts.

Financial Reporting

We interviewed key DEL-JEN and center officials and staff, reviewed applicable policies
and procedures, analyzed prior audit and Job Corps monitoring reports, and performed
a walkthrough with selected transactions to gain a better understanding of the center’s
system for financial reporting.

For non-personnel expenses, we reviewed a judgmental sample of 18 from a population
of 268 transactions chosen from the Gainesville Job Corps Center’s detail job cost
report. The sample was selected based on the following criteria: payments made in
operating cost line items where overruns were identified, payments that appeared to be
paid to unusual vendors, payments for items that appeared to be personal items,
payments that appeared to be for unallowable expenses, and payments that appeared
to be unusual in nature. This review of transactions was to determine if the expenses
reported were reasonable, allocable, supported, and had proper approval
documentation, and included tracing the expenses to the detail job cost report.

For personnel expenses, we performed a review of payroll expenditures and
judgmentally selected and reviewed 13 employees from a population of 26 employees
on payroll at Gainesville during PY 2007. This sample was selected based on
5
    One month of off-center WBL information was missing.

                                                                            Performance Audit of DEL-JEN
                                                           28                Report No. 26-10-001-01-370
                                       U. S. Department of Labor – Office of Inspector General


management officials who were employed during March 2008. Additionally, we included
three staff members to mask a hotline complainant. This review was to determine if
expenditures were for actual and allowable work done by valid employees at their
authorized rates, and included tracing the selected expenditures to authorized
timesheets, leave, and pay rates.

For public voucher and ETA Form 2110 reporting, we recomputed all Contract Year (CY)
2007 voucher reimbursable monthly expenses to verify reported calculated expenses
were correctly recorded. We compared all CY 2007 results to voucher reimbursable total
monthly expenses reported on the Form 2110 to verify calculated expenses were
consistent and accurate. We recalculated all reimbursed expenses reported on the
monthly voucher and submitted for payment and compared it to the contract year-end
total reported as reimbursable expenses on the Form 2110. Finally, we reviewed reported
Form 2110 variances to determine whether they were allowable and reasonable.

Gainesville and Albuquerque

Hotline Complaints

To determine whether the complainant’s allegation that a Gainesville manager hired
unqualified individuals who were former colleagues, we interviewed DEL-JEN’s vice
president for human resources and Gainesville’s current human resources manager to
obtain an overview of the hiring process as well as information on the operations of
Gainesville’s human resources department during the time the former education
manager was hired. We also reviewed the personnel records, which contain education
and experience information, of the individual hired as well as other staff members who
report directly to the center director in conjunction with applicable position descriptions.

To determine whether the complainant’s allegation that the former Albuquerque
manager used Job Corps funds to purchase prescription medications for personal use,
we interviewed the Albuquerque center director, reviewed the former manager’s human
resources file, and analyzed purchase requests and invoices in conjunction with
information on students who were on medications paid for by the center during 2006-
2007.

To determine whether the complainant’s allegation that an Albuquerque staff member
received dental services at the center on July 20, 2007, for which a custom dental
appliance was ordered from a laboratory and invoiced to the center, we interviewed the
staff and bookkeeper, and obtained copies of the invoice and cancelled check for the
transaction.

To determine whether the complainant’s allegation that student recreational services
were intentionally under-run to cover discretionary administrative over-runs and linked
to a May 2, 2009, riot at Gainesville, we interviewed the administrative director,
recreational manager, and recreational aides. We also analyzed detailed job cost
reports for on- and off-site recreational activities, recreational events calendars, and


                                                                  Performance Audit of DEL-JEN
                                             29                    Report No. 26-10-001-01-370
                                      U. S. Department of Labor – Office of Inspector General


student satisfaction surveys. In addition, we obtained a copy of all ETA 2110 reports
covering the period June 2008 through March 2009, as well as detailed job cost reports
detailing ETA 2110 operating expense transactions charged over the same time period.
We compared reported expenses to expenses charged for accuracy. We analyzed the
Form 2110 over-run explanations for reasonableness and tested a judgmental sample
of at least 5 selected transactions from each of the 7 expense categories that were
associated with over-runs. These categories are (1) other support services, (2) other
medical expense, (3) communications, (4) utilities and fuel, (5) motor vehicle expense,
(6) administrative personnel expense, and (7) facilities maintenance personnel expense.
This review of transactions was to determine if the expenses reported were reasonable,
allocable, supported, and had proper approval documentation.

To determine whether the complainant’s allegation that student government association
funds were misused to purchase center equipment, we interviewed the deputy center
director, accountant, and student government association leaders. We also reviewed
copies of student government association checks, including voided checks for
purchases not ultimately made.

To determine whether the complainant’s allegation that Gainesville stopped doing
background checks two years prior to May 2009 and accepted students with felony
records, we reviewed a statistical sample of 45 student records selected from a
population of 578 students enrolled at Gainesville during PY 2007. In our review, we
determined whether there was documentation to support background checks and felony
records.

To determine whether the complainant’s allegation that a center manager engaged in
racially discriminatory hiring and firing practices, we interviewed DEL-JEN’s vice
president for human resources, and reviewed the disposition of two Equal Employment
Opportunity Commission complaints filed during November 2008 through February
2009 against the center manager by current and former Gainesville staff for race and
color discrimination and retaliation.

Criteria

We used the following criteria to perform this audit:

   Code of Federal Regulations.
   Federal Acquisition Regulations.
   Job Corps Policy and Requirements Handbook.
   DEL-JEN SOPs.
   GAO Standards for Internal Control in the Federal Government.




                                                                 Performance Audit of DEL-JEN
                                            30                    Report No. 26-10-001-01-370
                                U. S. Department of Labor – Office of Inspector General


                                                                         Appendix C
Acronyms and Abbreviations

Albuquerque           Albuquerque Job Corps Center

AWOL                  Absent With Out Leave

CFR                   Code of Federal Regulations

CIS                   Center Information System

CTT                   Career Technical Training

CY                    Contract Year

DEL-JEN               DEL-JEN, Incorporated

DOL                   Department of Labor

ETA                   Employment and Training Administration

Gainesville           Gainesville Job Corps Center

GAO                   General Accountability Office

GED                   General Educational Development

HSD                   High School Diploma

OBS                   On-Board Strength

PDOF                  Present for Duty Off-Center

PRH                   Policy and Requirements Handbook

PY                    Program Year

SIR                   Significant Incident Report

SOP                   Standard Operating Procedure

TAR                   Training Achievement Record

WBL                   Work-Based Learning

WIA                   Workforce Investment Act


                                                           Performance Audit of DEL-JEN
                                      31                    Report No. 26-10-001-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN
               32                    Report No. 26-10-001-01-370
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix D
DEL-JEN Response to Draft Report




                                                          Performance Audit of DEL-JEN
                                     33                    Report No. 26-10-001-01-370
U. S. Department of Labor – Office of Inspector General




                           Performance Audit of DEL-JEN
      34                    Report No. 26-10-001-01-370
U. S. Department of Labor – Office of Inspector General




                           Performance Audit of DEL-JEN
      35                    Report No. 26-10-001-01-370
U. S. Department of Labor – Office of Inspector General




                           Performance Audit of DEL-JEN
      36                    Report No. 26-10-001-01-370
                                U. S. Department of Labor – Office of Inspector General


                                                                        Appendix E
Job Corps Response to Draft Report




                                                           Performance Audit of DEL-JEN
                                      37                    Report No. 26-10-001-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Performance Audit of DEL-JEN
               38                    Report No. 26-10-001-01-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                             Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), S. Marisela Sookraj,
Norma Estrada, Carmen Wilson, Angela Stewart, and Charmane Miller.




                                                                Performance Audit of DEL-JEN
                                           39                    Report No. 26-10-001-01-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	 http://www.oig.dol.gov/       hotlineform.htm
Email:	 hotline@         oig.dol.gov

Telephone:	    1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
 Room                 S-5506
               Washington, D.C. 20210
